         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Y-12 National Security Complex's
Waste Diversion Efforts




OAS-L-12-08                          July 2012
                                  Department of Energy
                                    Washington, DC 20585
                                          July 20, 2012


MEMORANDUM FOR THE MANAGER, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION PRODUCTION OFFICE


FROM:                    Daniel M. Weeber, Director
                         Eastern Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Y-12 National Security Complex's
                         Waste Diversion Efforts"

BACKGROUND

Executive Order 13423, Strengthening Federal Environmental, Energy, and Transportation
Management, mandates that each Federal facility maintain a cost-effective waste prevention and
recycling program. Further, Executive Order 13514, Federal Leadership in Environmental,
Energy, and Economic Performance, requires that Federal agencies achieve a 50 percent
diversion rate for construction and demolition materials and debris and a 50 percent rate for
non-hazardous solid waste, by the end of Fiscal Year (FY) 2015. Waste diversion includes the
prevention and reduction of generated waste through recycling, reusing or composting.
Diverting materials from the waste stream generates a host of benefits including conserving
energy, reducing disposal costs and contributing to a cleaner, safer environment. The
Department of Energy tracks its waste diversion progress via its Pollution Prevention Tracking
and Reporting System.

The Y-12 National Security Complex (Y-12) Pollution Prevention Program (Program) plays a
vital role in the Department's overall waste diversion efforts. During FY 2011, Y-12 generated
over 16,000 metric tons of non-hazardous solid waste, including debris from construction and
demolition projects. Because of the environmental, financial and social benefits of reducing the
amount of waste sent to the landfill, we initiated this audit to determine whether Y-12 was
effectively diverting materials from the waste stream. This is our second in a series of reports on
the Department's waste diversion efforts at select sites.

CONCLUSIONS AND OBSERVATIONS

We found that Y-12 had an established Program to divert materials from the landfill and
contributed to the Department's overall waste diversion efforts through recycling and reusing of
materials. Specifically, FY 2011 reports prepared by Y-12 management revealed that Y-12 had
met the targets of Executive Order 13514 by diverting 58 percent of its construction and
demolition debris and 50 percent of its non-hazardous solid waste from the landfill. Further,
Y-12 took action to increase its current waste diversion activities. In particular, Y-12
emphasized adding at least one new recycling stream to the recycling program each year.
Although it had realized significant accomplishments, we found that Y-12 was facing challenges
such as budget limitations and Department restrictions on the recycling of certain scrap metals.

                               Y-12's Pollution Prevention Program

Y-12's Program was designed to integrate waste diversion activities across the site at both the
organizational level and the employee level, and to provide feedback on progress. For example,
Y-12 established a Reduce/Reuse/Recycle (3R) team to link organizations across the site with a
common objective and to coordinate efforts. According to Y-12 officials, the 3R team, which
included representatives from various functions across the complex, met bi-monthly to discuss
pollution prevention opportunities. Y-12 also supported several activities to ensure that
employees across the site were aware of the benefits of waste diversion. For instance, the
Program produced a Pollution Prevention brochure to confirm both the site's commitment and
employees' responsibilities for pollution prevention. To ensure that employees were notified of
new and changing recycling streams, the Program also published and updated a formal recycling
procedure. Further, to monitor and provide feedback to management and the Department on the
progress of the Program, Y-12 used a computerized database and tracking system. Not only did
this tracking system allow the site to monitor progress, it also fed into the Department's Pollution
Prevention Tracking and Reporting System, thus permitting Headquarters officials to gauge the
site's progress.

Y-12's approach allowed it to meet diversion targets established by Executive Order 13514
several years ahead of schedule. In particular, we noted that Y-12 diverted over
7,320 metric tons of construction and demolition debris from landfill disposal through reuse and
recycling efforts, and disposed of only 5,360 metric tons. Further, we found that Y-12 had
diverted approximately 1,900 metric tons, half of its non-hazardous solid waste generated, from
landfill disposal.

Aside from the environmental benefits, Y-12's recycling efforts also produced revenue that
helped support the Program. In FY 2011, for instance, Y-12 received approximately $130,000 in
scrap metal recycling revenues that were used to support additional property sales/reuse
activities. In fact, Y-12 sought to maximize revenues by structuring recycling contracts to reflect
changes in current market prices. For example, under its recycling contracts, Y-12 received
$188.50 per gross ton for recycled scrap metal in December 2009, but this amount increased to
$353.50 per gross ton in October 2011. Y-12's paper and cardboard contract was similarly
structured to obtain fair and current prices.

                                        Continuing Efforts

We found that Program officials sought to continually improve waste diversion efforts.
Specifically, we noted that Y-12 periodically performed pollution prevention opportunity
assessments that it considered critical to implementing sustainable practices and reducing waste
generation and disposal. For example, an opportunity assessment of Y-12's on-site garage
identified the potential to recycle empty aerosol cans as scrap metal. Program officials reported
that the cans are now being punctured and collected for recycle rather than being disposed of in

                                                 2
the landfill. Further, Y-12 emphasized the addition of at least one new recycling stream to its
program each year. In FY 2011, for instance, pagers and exit signs that previously had been
dispositioned as waste were added to the recycling stream.

                                            Challenges

While the Program had significant accomplishments, we found that Y-12 was facing challenges
that may limit Program expansion. In particular, Program officials told us that several complex-
wide activities and initiatives remain on hold due to budget reductions. In addition, we found
that Y-12's scrap metal recycling had been impacted by the Department's July 2000 suspension
on the release of scrap metal from posted radiological areas. In FY 2011, for example, Y-12 had
disposed of rather than recycled over 1,800 metric tons of policy-encumbered scrap metal,
according to Program officials. Although the suspension remains in effect, the Department has
recognized that disposal of scrap metal as waste is contradictory to Departmental waste
minimization and pollution prevention efforts, and is currently working to address the matter.

Despite the challenges it faces, Y-12's recent efforts to reduce, reuse and recycle waste materials
resulted in a large percentage of materials being diverted from the landfill. Accordingly, no
formal recommendations are being made in this report and a response is not required.

We appreciate the cooperation of your staff and the various Departmental personnel that
provided information and assistance.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                                 3
                                                                                    Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether Y-12 National Security Complex (Y-12)
was effectively diverting materials from the waste stream.

SCOPE

The audit was performed from October 2011 through July 2012. We conducted work at Y-12 in
Oak Ridge, TN and obtained information from the Office of Health, Safety, and Security in
Washington, DC.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed laws and regulations, and policies and procedures relevant to Pollution
        Prevention and waste diversion;

    •   Reviewed Y-12's Pollution Prevention Plan, Site Sustainability Plan and selected
        recycling contracts;

    •   Held discussions with Y-12 Pollution Prevention officials;

    •   Interviewed key personnel at the Department of Energy's (Department) Office of Health,
        Safety and Security; and,

    •   Reviewed Y-12's FY 2011 Pollution Prevention Tracking and Reporting System waste
        diversion entries.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those Standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed performance measures in accordance with the GPRA
Modernization Act of 2010 and found the Department had not established performance measures
related to pollution prevention. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We
conducted an assessment of computer-processed data relevant to our audit objective and
determined that it was sufficiently reliable.

Management waived an exit conference.

                                               4
                                                                    IG Report No. OAS-L-12-08

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
